OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/ETHIOPIA’S
MONITORING OF AWARDS
WHICH DO NOT REQUIRE
ANNUAL FINANCIAL AUDITS


AUDIT REPORT NO. 4-663-06-002-P
November 10, 2005




PRETORIA, SOUTH AFRICA
Office of Inspector General




      November 10, 2005

      MEMORANDUM

      TO:                      USAID/Ethiopia Director, William Hammink

      FROM:                    Regional Inspector General, Jay Rollins /s/

      SUBJECT:                 Audit of USAID/Ethiopia’s Monitoring of Awards Which Do Not Require
                               Annual Financial Audits (Report No. 4-663-06-002-P)

      This memorandum transmits our report on the subject audit. In finalizing this report, we
      considered management comments on the draft report and have included those
      comments, in their entirety, as Appendix II.

      This report has six recommendations to improve USAID/Ethiopia’s efforts to monitor
      awards that do not require annual financial audits. As a result of actions taken by the
      Mission, we consider Recommendation Nos. 1 through 3 to have received final action
      upon the issuance of this report. In response to the draft report, USAID/Ethiopia
      concurred with Recommendation Nos. 4 through 6. In addition, USAID/Ethiopia provided
      corrective action plans and target completion dates. Therefore, we consider that a
      management decision has been reached for these recommendations. Please provide the
      Bureau for Management, Audit Performance and Compliance Division with the necessary
      documentation to achieve final action on Recommendation Nos. 4 through 6.

      I appreciate the cooperation and courtesy extended to my staff throughout the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ......................................................................................................... 1

Background ...................................................................................................................... 2

Audit Objective .................................................................................................................... 2

Audit Findings ................................................................................................................... 3

Did USAID/Ethiopia effectively monitor non-U.S.-based recipients expending less than
$300,000 of USAID funds during their fiscal year to ensure proper accountability? .......... 3

     Controller’s Office Needs To Improve
     Proactive Financial Monitoring ...................................................................................... 3

     Controller Needs To Be Designated As
     Audit Management Officer ............................................................................................ 6

     Award Inventory Needs To Be More
     Accurate and Complete................................................................................................. 7

     Cognizant Technical Officers Need To
     Better Document Site Visits .......................................................................................... 9


Evaluation of Management Comments ........................................................................ 12

Appendix I – Scope and Methodology ......................................................................... 13

Appendix II – Management Comments ........................................................................ 15
SUMMARY OF RESULTS
The Regional Inspector General/Pretoria conducted this audit to determine whether
USAID/Ethiopia effectively monitored non-U.S.-based recipients expending less than
$300,000 of USAID funds during their fiscal year to ensure proper accountability. (See
page 2.)

USAID/Ethiopia did not effectively monitor non-U.S.-based recipients expending less
than $300,000 of USAID funds during their fiscal year to ensure proper accountability.
The Controller’s Office did not proactively monitor non-U.S.-based recipients who are
exempt from USAID’s annual audit requirements. Specifically, the Controller’s Office did
not (1) assess the level of monitoring necessary for these recipients, (2) track the status
of open recommendations from prior assessments, or (3) provide written guidance to
financial analysts regarding the need for documenting their monitoring efforts. The
Mission also did not maintain an award inventory that was complete and accurate. In
addition, the Mission did not identify the Controller as its Audit Management Officer.
Finally, many of the Mission’s cognizant technical officers had not been documenting
their site visits. (See pages 3-11.)

This report includes six recommendations to assist USAID/Ethiopia in improving its
efforts to monitor awards that do not require annual financial audits. (See pages 6, 7, 9,
and 11.) Because of subsequent actions taken by USAID/Ethiopia, we consider
Recommendation Nos. 1 through 3 to have received final action upon the issuance of
this report.     In response to the draft report, USAID/Ethiopia concurred with
Recommendation Nos. 4 through 6. In addition, USAID/Ethiopia also provided
corrective action plans and target completion dates. (See page 15.) Therefore, we
consider that a management decision has been reached for these recommendations.




                                                                                         1
BACKGROUND
The Automated Directives System (ADS) 591 states that nonprofit organizations
expending less than $300,000 during their fiscal year under direct USAID cost
reimbursement awards and host governments expending less than $300,000 during their
fiscal year under USAID grants are exempt from the annual audit requirements
described in that section of the ADS. Although an annual audit is not required, missions
are still responsible for monitoring recipients expending less than the threshold amount.1
To achieve this objective, the ADS strongly recommends that mission controllers use the
Recipient Control Environment Assessment Checklist to determine the level of
monitoring necessary for these organizations.

ADS 591 also requires USAID missions to “maintain an inventory of all contracts, grants,
and cooperative agreements, including cash transfer, and non-project assistance grants,
awards financed with host country-owned local currency, and activities in non-presence
countries for use in determining audit requirements.” In other words, each mission must
keep an inventory of awards, irrespective of their dollar amount. According to ADS 591,
this award inventory should contain the following:

      1.   grantee/contractor name;
      2.   type of organization (e.g., for-profit);
      3.   award number, amount in U.S. dollars, and start and completion dates;
      4.   prior audits and periods covered;
      5.   receipt date for required audits; and
      6.   reasons for not including the award in the annual plan.

The audit scope included recipients of USAID/Ethiopia that expended less than
$300,000 during their fiscal year for the period October 1, 2003, through September 30,
2004. Fifty-one awards meeting those parameters included a total of $40 million in
USAID funding.

AUDIT OBJECTIVE
This audit was conducted at USAID/Ethiopia as part of the Regional Inspector
General/Pretoria’s annual audit plan. The audit was conducted to answer the following
question:

•   Did USAID/Ethiopia effectively monitor non-U.S.-based recipients expending less
    than $300,000 of USAID funds during their fiscal year to ensure proper
    accountability?

Appendix I contains a discussion of the audit’s scope and methodology.


1
 As defined in ADS 591, a recipient is an organization receiving financial assistance directly from
USAID to carry out a program under a grant or cooperative agreement. The term includes public
and private institutions of higher education, public and private hospitals, and other quasi-public
and private nonprofit organizations. The term may also apply to profit-making organizations that
are performing work under a grant or cooperative agreement relationship with USAID.


                                                                                                 2
AUDIT FINDINGS
Did USAID/Ethiopia effectively monitor non-U.S.-based
recipients expending less than $300,000 of USAID funds during
their fiscal year to ensure proper accountability?
USAID/Ethiopia did not effectively monitor non-U.S.-based recipients expending less
than $300,000 of USAID funds during their fiscal year to ensure proper accountability.

To ensure proper accountability for these funds, the Mission needs to improve its
monitoring of non-U.S.-based recipients. Although the Mission had mechanisms
available to monitor recipients whose expenditures of USAID funds were exempt from
annual audit requirements, the Controller’s Office staff had not proactively utilized those
mechanisms. Until recently, the Controller’s Office had not (1) assessed the risk levels
of recipients that required monitoring, (2) followed up on recommendations that
addressed weaknesses from prior years’ monitoring efforts, and (3) provided guidance to
its staff on the need to document their monitoring efforts. The Mission’s award inventory
was also inaccurate and incomplete. In addition, the Mission did not identify the
Controller as its Audit Management Officer. Although the Mission’s cognizant technical
officers (CTOs) were performing site visits, many of them had not prepared and
maintained documentation of the visits, including any monitoring efforts to account for
USAID funds. These issues will be addressed in the following subsections.

Controller’s Office Needs To Improve
Proactive Financial Monitoring

 Summary: USAID/Ethiopia has not been proactively monitoring its recipients whose
 expenditures of USAID funds are exempt from the annual audit requirement as
 defined in the Automated Directives System (ADS) 591. ADS 591 strongly
 recommends the use of the Recipient Control Environment Assessment Checklist to
 determine the level of monitoring required. Although the Mission Controller’s Office
 has mechanisms to monitor its recipients through the use of pre-award and post-
 award assessments, the Controller’s Office financial analysts were not proactive in
 using these assessments for those recipients who expended less than $300,000 in
 their fiscal year. Furthermore, until recently (1) the Controller’s Office had not
 assessed the risk levels of recipients to assist in determining the level of monitoring
 needed; (2) recommendations made in prior years’ assessments were not being
 followed up to ensure that the recommendations had been addressed; and (3)
 Mission guidance had not been issued on the importance of the need to adequately
 document monitoring efforts. As a result, USAID could not be assured that these
 funds were expended in accordance with the agreement terms and applicable laws
 and regulations. Recent action taken by the Controller’s Office will help to address
 these problems.




                                                                                           3
According to ADS 591, Appendix B:

       Due to the increase of the audit requirement threshold to $300,000
       Missions now have the sole oversight responsibility for recipients
       expending less than the threshold amount. With the limited amount of
       resources (personnel and dollars) available for such oversight, Missions
       are strongly encouraged to create and maintain a documented and
       supported plan for accountability of those funds.

ADS 591 also indicates that oversight of USAID awards includes providing assurance
that recipients:

    1. have a proper system of internal controls in place,

    2. are complying with all applicable agreement terms and laws and regulations, and

    3. are ensuring that expenditures are allocable, reasonable, allowable, and
       supported.

To determine the level of monitoring needed for nonprofit organizations expending less
than $300,000 in USAID funds during their fiscal year, ADS 591.3.2.1 states, “It is
strongly recommended that Missions use the ‘Recipient Control Environment
Assessment Checklist’.”2 ADS 591.3.4.2.c, states that the Checklist can assist the
Controller. This checklist assesses risk by considering several factors and their effect on
the organization’s internal controls. When used, the checklist should be completed for
each recipient and updated periodically. The major components of the checklist are
primarily related to accounting controls. ADS 591, Appendix B also states that the
Recipient Control Environment Assessment Checklist would greatly assist the missions
in demonstrating accountability.

The ADS also provides guidelines for using the results of the risk assessment,
guidelines that include conducting pre-award assessments and site visits. In the case of
pre-award assessments, the ADS describes this activity as an “evaluation of a
prospective recipient’s ability to perform under a Government sponsored agreement.” It
also notes that it is usually limited to assessing the “adequacy of the recipient’s
accounting system to accumulated cost information under an agreement and/or the
financial capability to perform under a prospective award.”

For site visits, ADS 591, Appendix B specifies that visits to local recipients by qualified
Mission financial personnel to complete the checklist are an integral part of the program.
However, it recognizes that site visits by activity managers or other Strategic Objective
(SO) team members can also provide valuable information.

The Mission Controller’s Office has mechanisms to monitor recipients through the use of
pre-award and post-award assessments and quarterly pipeline reviews. 3 However, the
Controller’s Office financial analysts were not proactive in their use of the pre-award and
post-award assessments for those recipients who expended less than $300,000 during

2
 This checklist is found in ADS 591, Appendix A.
3
 Post-award assessments are conducted on USAID recipients to ensure that controls are
adequate and that financial transactions are executed in accordance with the USAID agreement.


                                                                                           4
their fiscal year. For example, during fiscal year 2004 the Mission conducted only one
pre-award survey and two post-award assessments for the 30 recipients who expended
less than $300,000 in their fiscal year. In prior years, recommendations had been made
by the Mission in pre-award and post-award assessments to address weaknesses that
had been identified. However, the Mission was not providing any follow-up to ensure
that the recipients had addressed the earlier recommendations. Also the recipient files
that were maintained by the financial analysts contained little documentation of financial
monitoring through the use of emails and phone records. Although financial analysts
participate in quarterly pipeline reviews with the Mission’s Strategic Objective teams,
their files contained little documentation of their participation in this activity.

There were several reasons why the Mission Controller’s Office was not proactive in its
use of pre- and post-award assessments:

   •   First, staffing shortages were caused by financial analysts being sent to assist
       USAID operations in Afghanistan and Iraq.

   •   Second, one of the financial analysts responsible for monitoring was not aware of
       the monitoring requirement.

   •   Third, the Control Environment Assessment Checklist was not being used. As
       stated previously, its use helps to determine the level of monitoring needed for
       nonprofit organizations expending less than $300,000 in USAID funds during
       their fiscal year. As of November 2004, guidance provided by the Mission has
       strongly recommended that the financial analysts use the Control Environment
       Assessment Checklist as part of their financial monitoring.

In the case of prior recommendations from pre- and post-award surveys not being
followed up by the Mission, this was caused by the Mission‘s lack of a tracking system to
assess the status of open recommendations. Subsequently, in August 2005 the
Controller established a tracking system to monitor prior recommendations that resulted
from pre-award and post-award assessments. Included in this tracking system were
follow-up and verification activities.

The instances of the recipient files containing little documentation of financial monitoring
occurred because the Mission did not require that documentation be kept. On August
18, 2005, an email directive was sent from the Controller to her employees reiterating
the importance of documenting monitoring efforts in their files.

In the absence of annual financial audits, and without proactive monitoring by the
Controller’s Office, the Mission had little assurance that the $40 million of USAID funds
received by these recipients was being expended in accordance with agreement terms
and applicable laws and regulations. When the Mission does not monitor recipients who
expend less than $300,000 during their fiscal year, these USAID funds are put at risk.
Until recently, the Mission was not using the Recipient Control Environment Assessment
Checklist nor any other means to systematically assess the risk level of its recipients.

This audit determined that the Controller’s Office needed to improve its proactive
financial monitoring. Subsequent actions taken by the Controller’s Office have
addressed many of the concerns raised in this section of the report. Most notably, the



                                                                                          5
use of the Recipient Control Environment Assessment Checklist will provide a
mechanism to help the Mission to determine the level of monitoring necessary for
recipients who are not required to have annual audits. Ostensibly, this will allow the
Controller’s Office to direct its limited resources to recipients with the highest risk levels,
and, therefore, most in need of monitoring. In addition, the newly established Mission
tracking system will serve as a monitoring tool to assess the status of open
recommendations made during previous pre- and post-award assessments. Finally,
recent Mission guidance addressed the importance of the financial analysts
documenting their monitoring activities in their files. As a result of these actions taken by
the Mission, Recommendation Nos. 1 and 2 will be closed when the final version of this
audit report is issued.

   Recommendation No. 1: We recommend that USAID/Ethiopia develop and
   implement a tracking system which will serve as a monitoring tool for assessing
   the status of open recommendations made during the pre-award and post-award
   assessments.

   Recommendation No. 2: We recommend that USAID/Ethiopia provide written
   guidance for its financial analysts on the importance of providing documentation
   of their monitoring efforts in their files.

Controller Needs To Be Designated
As Audit Management Officer

 Summary: USAID/Ethiopia’s Controller was not designated as the Mission’s Audit
 Management Officer (AMO). According to ADS 591, the Controller provides
 oversight for determining the feasibility of audits and ensuring proper accountability of
 awards. However, Mission Order 504 designates the AMO as the Supervisory
 Financial Analyst and assigned to that individual filing and reporting responsibilities
 related to audits. In other words, the Mission Order was written in a manner that
 conflicted with the Controller responsibilities identified in ADS 591 and, therefore, did
 not comply with ADS 591 and the AMO responsibilities may not have been carried
 out as effectively as possible. Recently, the Mission issued a new Mission Order
 which addressed this non-compliance issue.

ADS 591.2.c states that the Mission’s Audit Management Officer (AMO) is responsible
for developing and maintaining the Mission’s audit inventory and for coordinating with
the Regional Inspector General, Management Action Official, and other Mission officials
to develop the Mission’s Annual Audit Plan. Further, ADS 591.3.4.2 states that the
Mission Controller is responsible for determining (1) the feasibility of conducting audits
on a case-by-case basis and (2) the level of audit, if required, necessary to ensure
appropriate accountability for these awards. In addition, USAID/Ethiopia had its own
Mission Order 504, “Audit and Management Control Review Committee” (dated 8/16/01),
which addressed current requirements and guidance related to audits.

Mission Order 504 designated the Supervisory Financial Analyst in the Office of
Financial Management as the Mission’s AMO. The Mission Order also assigns the AMO
responsibility for filing and reporting responsibilities related to audits. The Mission Order
did not assign any specific audit responsibilities to the Mission’s Controller.


                                                                                             6
This occurred because the Mission Order was written in a manner that conflicted with
the Controller responsibilities identified in ADS 591. Specifically, the Mission Order
failed to address the responsibilities that the ADS gives the Controller in respect to
determining the feasibility of audits and ensuring proper accountability of awards. This
resulted in non-compliance with ADS 591 and the possibility that AMO responsibilities
were not being carried out as effectively as possible.

The Mission’s Controller agreed that the Mission Order should be changed to identify the
Controller as the AMO. The Controller, who was relatively new to the Mission, said that
she had wanted to assume the AMO responsibilities. As a result, on September 6,
2005, the Mission issued Mission Order 5-14, “Audit and Management Control Review
Committee”. This Mission Order superseded Mission Order 504 and re-designated the
Controller or his/her designee as the AMO and also redefined the role of the AMO as it
relates to audits.

USAID/Ethiopia’s recent issuance of Mission Order 5-14 addressed the contradiction
that existed between Mission Order 504 and ADS 591. As a result of this action taken,
Recommendation No. 3 will be closed upon final report issuance.

   Recommendation No. 3: We recommend that USAID/Ethiopia revise its Mission
   Order 504 to designate the Controller as the Audit Management Officer.

Award Inventory Needs To Be
More Accurate and Complete

 Summary: In part, ADS 591 requires that USAID/Ethiopia maintain an inventory of all
 contracts, grants, and cooperative agreements. The audit identified a number of
 errors in the Mission’s award inventory. These errors occurred because the AMO did
 not coordinate with the appropriate staff in developing the Mission’s inventory to
 ensure its accuracy and completeness. The cognizant technical officers (CTOs) and
 activity managers were not provided copies of the inventory, and no one was
 ensuring that the awards included in the inventory were accurate and complete prior
 to submitting it to the Regional Inspector General. Also, the Controller’s Office
 employees responsible for data entry keyed inaccurate start and completion dates
 and award numbers into the Mission Accounting and Control System (MACS)
 because of the lack of standardized language in the implementation letters (the
 source documents). Further, the inventory was not always updated with the latest
 data contained in award modifications. Incomplete award inventory data occurred
 when fiscal year-end awards were not included in the inventory. An inaccurate and
 incomplete award inventory may result in awards with less than $300,000 not being
 properly monitored.


ADS 591.3.4.2 requires missions to “maintain an inventory of all contracts, grants, and
cooperative agreements, including cash transfer and non-project assistance grants,
awards financed with host country-owned local currency, and activities in nonpresence
countries for use in determining audit requirements.” The ADS also stipulates that each
mission must develop an annual audit plan to ensure complete audit coverage of all


                                                                                       7
direct awards to prime foreign organizations. The ADS further states that the AMO must
coordinate with the appropriate activity managers in developing the Mission’s inventory
and annual audit plan.

The audit found that USAID/Ethiopia’s award inventory was inaccurate and incomplete.
Data testing conducted during the audit identified many inaccurate items. Many of these
inaccuracies were related to incorrect dates and award numbers. The Mission’s award
inventory for September 30, 2004 included 139 recipients that received 337 awards with
a total award amount of $367 million. There were 30 non-U.S.-based recipients that fell
within the scope of our audit; they had received 51 awards which totaled $40 million.
The inventory data—which contained grantee/contractor name, recipient agreement
number, start and completion dates, and agreement amounts—as compared against
data contained in the agreement files for all 51 awards. Thirty-one (61percent) of those
awards had one or more errors. The most common errors related to incorrect start and
completion dates and incorrect award numbers. There were also a number of
miscellaneous errors, including an inaccurate recipient name and a foreign-based
recipient being classified as a U.S.-based recipient.

Regarding the issue of incomplete data, the audit identified seven awards with
commitments totaling $9.2 million that had not been included in the Mission’s award
inventory. There were two reasons why this occurred:

   •   First, these awards had been made at the end of fiscal year 2004 and had not
       been entered into MACS. The Mission had developed its award inventory by
       extracting this data from MACS just after the end of fiscal year 2004, with the
       result that these seven awards were not included in the award inventory.

   •   Second, the employees from the Mission’s Office of Financial Management
       responsible for data entry did not receive these awards in time to include them
       into MACS. During that time, the Regional Inspector General/Pretoria required
       that it receive award inventories from missions no later than October 4, 2004.

These problems occurred because the AMO did not coordinate with the appropriate
CTOs and activity managers in developing the Mission’s inventory, and because no one
at the Mission was reviewing the inventory for accuracy and completeness prior to
submitting it to the Regional Inspector General/Pretoria. The AMO did provide the
award inventory to the Strategic Objective (SO) office team leaders. However, a number
of the CTOs and activity managers did not receive and review the award inventory when
the inventory was being developed. In addition, the data entry personnel from the
Controller’s Office input inaccurate start and completion dates and award numbers into
MACS because of the lack of standardized language in the implementation letters, which
were source documents. Further, award completion dates in the inventory were not
always updated with the latest award modifications.            The Regional Inspector
General/Pretoria has since extended the deadline for missions to submit their award
inventory—this year the award inventory will be due no later than November 18, 2005.
According to the Mission’s Controller, this time extension will help the Mission in the
future to ensure that its award inventory is complete.

If used properly, the award inventory can be an effective part of the monitoring process.
However, the lack of an accurate and complete award inventory may result in awards
with expenditures less than $300,000 not being properly monitored. In order for


                                                                                       8
USAID/Ethiopia to develop and maintain a meaningful inventory, we are providing the
following recommendations.

   Recommendation No. 4: We recommend that USAID/Ethiopia develop guidance
   that provides standard language to be used in the Mission’s implementation
   letters. This guidance should identify what constitutes start dates and completion
   dates, as well as the proper use and identification of award numbers.

   Recommendation No. 5: We recommend that USAID/Ethiopia develop and
   implement a plan which will provide cognizant technical officers and activity
   managers with copies of the award inventory, requiring them to check the
   inventory for accuracy and completeness. As part of this plan, the cognizant
   technical officers and activity managers should annually certify that they have
   reviewed the awards for which they are responsible for both accuracy and
   completeness.

Cognizant Technical Officers
Need To Better Document Site Visits

 Summary: USAID/Ethiopia’s CTOs need to improve documentation of their site visits
 to the Mission’s recipients. As required by ADS 303, 202, and the CTO Checklist,
 CTOs are responsible for documenting their significant actions with recipients and for
 evaluating the recipients’ performance. Nevertheless, many of the Mission’s CTOs
 have not been documenting their site visits to show their monitoring efforts in
 accounting for proper expenditure of USAID funds. This occurred because some
 CTOs incorrectly believed that: (1) visits to recipients who were located nearby did
 not need to be documented and (2) visits were only necessary for recipients that
 received large awards as opposed to recipients who received small awards needed
 to be documented. These misconceptions raise the possibility that the Mission’s
 CTOs have not been adequately monitoring recipients during their visits.


According to USAID’s ADS 303.3.4.c.1, CTOs are responsible for monitoring and
evaluating a recipient and its performance during the award to facilitate the attainment of
program objectives. Required CTO actions include contact through site visits and liaison
with the recipient, and reviewing and analyzing performance and financial reports. The
CTO responsibilities are further defined in the CTO Checklist found in USAID’s Guide
Book for Managers and Cognizant Technical Officers on Acquisition and Assistance
(November 1998). Among the CTO responsibilities are:


   •   maintaining reasonable contact with the contractor to become aware of and gain
       an understanding of its problems and work schedules;


   •   documenting significant actions, conversations, etc., as they occur;


   •   establishing and maintaining a separate file for documents and correspondence
       pertaining to the contract; and



                                                                                          9
   •   monitoring funds closely on a regular basis.

According to ADS 202.3.4.6, Strategic Objectives (SO) teams “must ensure that they
have adequate official documentation on agreements used to implement USAID-funded
activities, resources expended, issues identified, and corrective actions taken.”

As part of their monitoring efforts, the Mission’s CTOs should stay in contact with
recipients through phone calls, emails, and site visits. But a review of the CTOs’ files
found deficiencies in this area. Many of the Mission’s CTOs were neither documenting
nor maintaining files on the results of their site visits with recipients, including their
monitoring of funds. Trip reports, when found, tended to identify programmatic aspects
of the visits without mentioning financial issues. The audit identified a recently
established practice among some CTOs who were using a proforma site visit report.
Although the proforma report did not identify financial monitoring as one of the listed
components, it could be easily modified to address such monitoring. The file review
identified other types of financial monitoring documentation, which varied among the
CTOs this including (1) quarterly pipeline reviews, (2) semi-annual reports containing
financial data, and (3) reviews of recipients’ vouchers for payment.

When CTOs were questioned as to why they were not preparing and maintaining
documents related to their site visits some of them replied that they believed that (1) if
the recipient was located nearby, there was no need to document visits and (2) only
recipients with large awards needed trip reports. Both of these beliefs conflict with
existing USAID policies regarding the documentation of site visits. In addition, some
CTOs were not able to make site visits due to security concerns that existed in some of
the regions where their activities were being carried out.

Because many site visits with the Mission’s recipients had not been documented and
maintained in files, it was difficult for the Mission to account for its monitoring of USAID
funds and site visit results. Although some documentation was kept, it was generally
incomplete. Without such documentation, it was difficult to evaluate the recipients’
performance during the award period. As a result, there exists the possibility that those
USAID/Ethiopia non-U.S.-based recipients who expended less than $300,000 during
their fiscal year may not have been adequately monitored by the CTOs.

The documentation and maintenance of site visit records are an important internal
control for ensuring that all of the Mission’s recipients are adequately monitored and that
USAID funds are accounted for. A practice of CTOs conducting site visits with recipients
without documenting their monitoring activities from these visits is of limited value and
does not meet the intent of the ADS.                 Rather, including proper information
documentation of site visits in the CTOs’ files helps provide information that serves as a
basis for evaluating the effectiveness of a recipient’s program. Having site visit
documentation is also important for historical purposes, especially when another CTO is
assigned responsibility for the recipient’s program. In order to strengthen this
management control and to provide the Mission with the full benefit of the CTOs’ site
visits, we are making the following recommendation.




                                                                                         10
Recommendation No 6: We recommend that USAID/Ethiopia develop Mission-
specific procedures requiring that site visits of recipients be documented and
maintained in cognizant technical officer files when financial monitoring has been
performed, that should be included as part of the site visit report.




                                                                                     11
EVALUATION OF
MANAGEMENT COMMENTS
At the time our draft audit report was submitted to USAID/Ethiopia, the Mission had
already taken action to address Recommendation Nos. 1 through 3. As a result, we
consider those recommendations to have received final action upon the issuance of this
report. In responding to our draft report, USAID/Ethiopia management concurred with
Recommendation Nos. 4, 5, and 6. For Recommendation No. 4, the Mission indicated
that in coordination with the Regional Legal Advisor, it is preparing Mission guidance to
standardize the information required in USAID/Ethiopia’s implementation letters. It is
anticipated that final action on Recommendation No. 4 will be completed by March 1,
2006. The Mission stated that for Recommendation No. 5, it will include the active
participation of, and certification by, the Mission’s cognizant technical officer’s to ensure
that the audit inventory is accurate and complete. The Mission estimates that final
action for Recommendation No. 5 will be completed by December 31, 2005. For
Recommendation No. 6, the Mission indicated that it is in the process of amending its
Mission Order on site visits in order to incorporate financial issues that are impacting
program implementation. Final action to address Recommendation No. 6 is expected by
June 1, 2006. Based upon the above information, we consider that a management
decision has been reached for Recommendation Nos. 4 through 6.




                                                                                          12
                                                                           APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this audit in accordance with
generally accepted government auditing standards. The audit was conducted at
USAID/Ethiopia in Addis Ababa, Ethiopia from April 25 through May 6, 2005, and August
15 through 24, 2005.

The audit scope included recipients of USAID/Ethiopia that expended less than
$300,000 during their fiscal year for the time period October 1, 2003, through September
30, 2004. In planning and performing the audit, we tested and assessed internal
controls for USAID/Ethiopia related to monitoring non-U.S.-based recipients expending
less than $300,000 in USAID funds in their fiscal year. Specifically, we examined and
assessed the following significant internal controls: (1) developing an award inventory
and plan; (2) developing and implementing a monitoring plan through the use of pre-
award and post-award assessments for recipients expending less than $300,000; (3)
conducting site visits to ensure funds were being spent in accordance with agreement
terms and applicable laws and regulations; and (4) establishing and maintaining site visit
documentation files. In addition, we interviewed the Controller, Deputy Controller, Audit
Management Officer, and financial analysts, as well as cognizant technical officers and
activity managers, to determine the processes and internal controls used. We obtained
a copy of the Mission’s award inventory as of September 30, 2004, which included 139
recipients that received 337 awards totaling $367 million. There were 30 non-U.S.-
based recipients falling within the scope of this audit with 51 awards. The audit tested
the accuracy and completeness of the award inventory prepared by USAID/Ethiopia.
However, the Mission Accounting and Control System from which the award inventory was
extracted was not audited.

The types of evidence examined during the audit included—but were not limited to—the
award inventory prepared by the Controller’s Office and recipients’ files maintained by
the financial analysts and cognizant technical officers, which included various
documents relating to their monitoring efforts. There was a scope limitation because
some of the documents contained in the Mission’s files were written in Amharic. In these
cases, the audit team had to rely upon the Mission’s staff to interpret these documents.

Methodology
In order to gain an understanding of USAID/Ethiopia’s monitoring process, we held
discussions with officials from the Mission and reviewed relevant project documentation.

To accomplish the audit objective, we developed an audit program and performed the
following tasks:

    •   Reviewed applicable regulations, USAID policy, and guidance related to the
        audit objective.




                                                                                       13
                                                                           APPENDIX I

    •   Gained an understanding of USAID/Ethiopia’s monitoring of recipients
        expending less than $300,000 by reviewing and analyzing applicable
        documentation such as, but not limited to, the award inventory, annual audit
        plan, and site visit reports.

    •   Tested data on the award inventory to determine its accuracy. Specifically, we
        verified the grantee/contractor name, agreement number, start and completion
        dates, and the award amount of the agreement for all awards within the scope of
        this audit.

    •   Compared the award inventory to the list of recipients with active awards
        received from the Mission’s Regional Contracting Officer. However, we were
        unable to compare the award inventory list to a list of active Project
        Implementation Letters because the Mission’s program development office did
        not have a complete listing of these Letters.

    •   Interviewed the Controller and employees from the Controller’s Office and then
        reviewed their documents that were pertinent to the audit.

    •   Interviewed cognizant technical officers from all five of the Mission’s Strategic
        Objective teams and reviewed recipient files to determine the extent of their
        monitoring.


The audit team relied upon the award inventory that was prepared by USAID/Ethiopia.
In developing the award inventory the Mission staff classified awards above and below
the audit threshold. In that regard, the audit team did not audit against the threshold
amount. We did not set a materiality threshold for this audit as the nature of the audit
did not lend itself to the establishment of such a threshold. However, we designed our
audit to address potential concerns such as:

   •    inadequate monitoring of awards with expenditures under $300,000.
   •    inaccurate and incomplete audit inventory.
   •    lack of knowledge or understanding of the Automated Directives System
        requirements.
   •    absence of documentation in recipient files to determine monitoring efforts.




                                                                                      14
                                                                          APPENDIX II




                                            MEMORANDUM


Date:               October 26, 2005

To:                 Jay Rollins, Regional Inspector General

From:               William Hammink, USAID/Ethiopia Director /s/

Subject:            Mission Comments on Report No. 4-663-05-XX-P (Audit of
                    USAID/Ethiopia’s Monitoring of Awards Which Do Not Require Annual
                    Financial Audits)

This memorandum contains USAID/Ethiopia’s comments on the subject audit report
transmitted on September 29, 2005. We appreciate the auditors’ assessment and
assistance in strengthening the Mission’s monitoring of awards which do not require
annual financial audits. As noted in the draft audit report, Recommendations 1 through
3 have been addressed by the Mission and will be closed upon issuance of the final
audit report. The following is USAID/Ethiopia’s plan of action to address
Recommendations 4 through 6.

Recommendation No. 4:         We recommend that USAID/Ethiopia develop
guidance that provides standard language to be used in the Mission’s
implementation letters. This guidance should identify what constitutes start dates
and completion dates, as well as the proper use and identification of award
numbers.

Action Taken: USAID/Ethiopia is in full agreement with this audit recommendation. The
Mission’s Program Office, in coordination with the Regional Legal Advisor, has initiated
preparation of Mission guidance to standardize the information required in
USAID/Ethiopia’s implementation letters. This guidance will include the need for start and
completion dates, as well as the proper use and identification of award numbers.

The necessary actions to close this recommendation have been initiated and the Mission
anticipates that final action will be completed by March 1, 2006. USAID/Ethiopia will
request closure of this recommendation once the Mission guidance on preparation of
implementation letters has been finalized and issued.

Recommendation No. 5:           We recommend that USAID/Ethiopia develop and
implement a plan which will provide cognizant technical officers and activity
managers with copies of the award inventory, requiring them to check the
inventory for accuracy and completeness. As part of this plan, the cognizant
technical officers and activity managers should annually certify that they have
reviewed the awards for which they are responsible for both accuracy and
completeness.

U.S. Agency for International Development
Riverside Building                            Tel: ((251)-1-510088
Off Haile G/S / Olympia Road                  Fax: (251)-1-510043
                                              www.usaid.gov
Addis Ababa

                                                                                        15
                                                                             APPENDIX II

Action Taken: We appreciate the auditors’ assessment that additional participation by
the CTOs will improve the quality of the Mission’s audit inventory, and fully support this
recommendation.

The preparation of the FY 2006 audit inventory will include the active participation of, and
certification by, the Mission’s CTOs to ensure the accuracy and completeness of the
inventory. Documentation of the CTOs’ certifications will be kept on file, and will be
submitted to the Audit Performance and Compliance Division as part of the Mission’s
request to close this recommendation. The Mission anticipates that final action will be
completed by December 31, 2005.

Recommendation No. 6:         We recommend that USAID/Ethiopia develop
Mission specific procedures requiring that site visits of recipients be documented
and maintained in cognizant technical officer files, and when financial monitoring
has been performed, that should be included as part of the site visit report.

Action Taken: USAID/Ethiopia fully supports this recommendation, and is in the process
of amending the current Mission Order on site visits to incorporate the feedback provided
by the auditors. A site visit report format that includes a question on financial issues that
are impacting program implementation is included as part of the revised Mission Order.

We believe the necessary actions have been initiated, and anticipate that final action will
be completed by June 1, 2006. The Mission will request closure of this recommendation
once the revised Mission Order on Site Visits (and the site visit report format) are finalized
and issued.

We appreciate the opportunity to respond to these recommendations and to share with
you the actions we are taking to address the audit recommendations.




                                                                                             16
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
